la
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 19-1920
John L. Corrigan, Jr.
Plaintiff - Appellant,
v.
City of Savage, et.al.
Defendants - Appellees
Appeal from United States District Court
for the District of Minnesota
Submitted: November 25, 2019
Filed: December 2, 2019
________________ [Unpublished!________________
Before COLLOTON, BENTON, AND GRASZ, Circuit
Judges.
PER CURIAM.
John Corrigan appeals the district court’s1
dismissal of his pro se action asserting claims under
42 U.S.C. § 1983 against the City of Savage and
several of its police officers, Scott County and several
of its employees, the trial court judge who presided
over his criminal trial, and the victim of the
underlying criminal charge. After careful de novo
review, we conclude that the district court did not err
in dismissing the case. See Kelly v. City of Omaha. 813
F.3d 1070,1075 (8th Cir. 2016) (de novo review of grant
of Rule 12(b)(6) motion); Saterdalen v. Spencer. 725
F.3d 838, 840-41 (8th Cir. 2013) (de novo review of
district court’s grant of judgment on the pleadings).
Accordingly, we affirm. See 8th Cir. R. 47B.
1 The Honorable Ann D. Montgomery, United States District
Judge for the District of Minnesota, adopting the report and
recommendations of the Honorable Becky R. Thorson, United
States Magistrate Judge for the District of Minnesota.

2a
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
John L. Corrigan, Jr.
Plaintiff,
v.
City of Savage, et.al.
Defendants.

Memorandum Opinion
And Order
Civil No. 18-2257
ADM/BRT

John L. Corrigan, Jr., Shakopee, MN, pro se.
Kathryn Iverson Landrum, Assistant Attorney
General, Minnesota Attorney General’s Office, St.
Paul, MN, on behalf of Judge Christian Wilton.
Daniel P. Kurtz, Esq., League of Minnesota Cities,
St. Paul, MN, on behalf of City of Savage, Gabe
Kerkaert, Edward Culbreth, Kyle Klapperick,
Alexandria Marklowitz, and Ashley Uthe.
Anna L. Yunker, Esq., and William J. Everett,
Esq., Everett & Vander Weil, P.L.L.P., Rosemount,
MN, on behalf of Nelson Rhodus, Lynn Hanson, Luke
Hennen, and Scott County.
I. INTRODUCTION
This matter is before the undersigned United
States District Judge for a ruling on Plaintiff John L.
Corrigan, Jr.’s (“Corrigan”) Objection [Docket No. 86]
to Magistrate Judge Becky R. Thorson’s January 14,
2019 Report and Recommendation [Docket No. 85]
(“R&R”). In the R&R, Judge Thorson recommends
granting Defendant Judge Christian Wilton’s (“Judge
CASE 0:18-cv-02257-ADM-BRT Document 90 Filed
04/04/19 Page 1 of 11 Wilton”) Motion to Dismiss
Amended Complaint [Docket No. 35]; granting
Defendants City of Savage, Police Officer Gabe
Kerkaert (“Officer Kerkaert”), Police Officer Edward
Culbreth (“Officer Culbreth”), Police Officer Kyle

3a
Klapperick (“Officer Klapperick”), Police Officer
Alexandria Marklowitz (“Officer Marklowitz”), and
Police Officer Ashley Uthe’s (“Officer Uthe”)
(collectively, the “Savage City Defendants”) Motion for
Judgment on the Pleadings [Docket No. 45]; granting
Defendants Scott County, Assistant Scott County
Attorney Nelson Rhodus (“Prosecutor Rhodus”), Scott
County Sheriff Luke Hennen (“Sheriff Hennen”), and
Probation Officer Lynn Hanson’s (“Probation Officer
Hanson”) (collectively, the “Scott County Defendants”)
Motion for Judgment on the Pleadings [Docket No.
50]; granting Defendant Amber Bernier’s (“Bernier”)
Motion for Judgment on the Pleadings [Docket No.
69]; and dismissing Corrigan’s Amended Complaint
[Docket No. 23].
Responses to Corrigan’s Objection have been filed
by Judge Wilton [Docket No. 87], the Savage City
Defendants [Docket No. 88], and the Scott County
Defendants [Docket No. 89].
After a de novo review of the record, and for the
reasons stated below, the Objection is overruled and
the R&R is adopted.
II. BACKGROUND
The factual background of this case is set forth in
the R&R and is incorporated by reference. Briefly, on
August 3, 2016, Corrigan was driving on the freeway
when his car nearly collided with Bernier’s. Am.
Compl. f 19. The parties made eye contact, and
Corrigan began deliberately following Bernier’s car.
Id. Tf 20. After Corrigan had followed Bernier for 15
minutes, Bernier stopped her car and told Corrigan
that she would call the police if he did not stop
following her. Id. Iff 20—21. Corrigan responded that
the police should be called. Id. If 21.

4a
Bernier called 911 and was directed to a nearby
police station. Id. 1 22. Corrigan followed Bernier’s
car into the police station parking lot, parked, and got
out of his car. Id. Officer Kerkaert arrived in a squad
car with lights flashing and parked behind Corrigan’s
vehicle. Id. | 23. Corrigan placed his passport on the
hood of his car and Officer Kerkaert picked up the
passport. Id. Officers Culbreth and Klapperick
arrived and, together with Officer Kerkaert, began
asking Corrigan questions.
Id. ^ 24.
Officers
Marklowitz and Uthe also arrived and interviewed
Bernier. Id. Tf 26. The officers cited Corrigan for fifth
degree assault and returned his passport to him. Id.
1 27. Prosecutor Rhodus later amended the charge to
stalking under Minn. Stat. § 609.749. Id. t 33.
Judge Wilton presided over Corrigan’s criminal
jury trial. Id. f If 36-37. The jury returned a verdict
finding Corrigan to be guilty of stalking. Id. Judge
Wilton ordered the Scott County probation office to
prepare a Pre-Sentence Investigation Report (“PSI
Report”). Id. ^f 37. Probation Officer Hanson prepared
the PSI Report, which concluded that Corrigan would
not be amenable to probation and recommended a
sentence of 120 days in the Scott County Jail. Id. If
38. Judge Wilton imposed a 120-day sentence as
recommended in the PSI Report. Corrigan appealed
his conviction and sentence, and the Minnesota Court
of Appeals affirmed. See State v. Corrigan, No. A171145, 2018 WL 3214271 (Minn. Ct. App. July 2, 2018).
The Minnesota Supreme Court denied certiorari.
Corrigan filed this 42 U.S.C. § 1983 lawsuit on August
2, 2018, alleging federal constitutional claims against
all Defendants and asserting state law claims against
Scott County and the Savage City Defendants. Id. Tfl
42-50. The R&R recommends dismissing the federal

5a
constitutional claims with prejudice and dismissing
the state law claims without prejudice.
III. DISCUSSION
A. Standard of Review
In reviewing a magistrate judge’s report and
recommendation on a dispositive matter, the district
court “shall make a de novo determination of those
portions of the report or specified proposed findings or
recommendations to which objection is made.” 28
U.S.C. § 636(b)(1)(C); see also D. Minn. L.R. 72.2(b).
A district judge “may accept, reject, or modify, in
whole or in part, the findings or recommendations
made by the magistrate judge.” Id.
B. Corrigan’s Objections
Corrigan raises numerous objections to the R&R.
The Court addresses the objections in the sequence
presented.
1. Fraud on the Court - Unlawful Arrest
Corrigan argues the officers lacked probable cause
to arrest him because they did not witness the
misdemeanor being committed. Obj. at 1-3. This
argument fails for multiple reasons. First, as the R&R
correctly determined, the officers did not arrest
Corrigan. Rather, the officers conducted a stop under
Terry v. Ohio, 392 U.S. 1 (1968) and issued a citation
to Corrigan at the conclusion of the stop. Corrigan
argues he was arrested because he was not free to
leave, as Officer Kerkaert parked his squad car behind
Corrigan’s car and was holding Corrigan’s passport.
However, Corrigan does not allege that any officer told
Corrigan he was under arrest or that he was not free
to leave the scene. Nor does Corrigan allege that the
officers handcuffed him or otherwise physically
confined him. These circumstances do not constitute
“a formal arrest or restraint on freedom of movement

6a
of the degree associated with a formal arrest.” United
States v. Williams, 760 F.3d 811, 814 (8th Cir. 2014).
Even if Corrigan had been arrested, the
“prevailing view” under federal law “is that the
Constitution does not require that a misdemeanor
offense must have occurred in the officer’s presence to
justify a warrantless arrest.” Veatch v. Bartels
Lutheran Home, 627 F.3d 1254, 1259 (8th Cir. 2010).
Minnesota law also does not impose a presence
requirement. In Minnesota, an officer may “make an
immediate pursuit and stop of a person who has
committed a misdemeanor in the very recent past.”
State v. Stich, 399 N.W.2d 198, 199 (Minn. Ct. App.
1987). Here, the officers arrived on the scene shortly
after Corrigan had followed Bernier into the police
parking lot. Although Corrigan knew that Bernier
was sufficiently threatened by his conduct that she
found it necessary to call the police, he refused to stop
following her and was still in her presence when the
police arrived. Thus, Corrigan’s misdemeanor had
been very recently committed (or was still being
committed) at the time he was arrested.
Corrigan also argues that the officers lacked
probable cause to believe Corrigan committed a crime
because “[fjollowing someone is not a crime.” Obj. at
3. Corrigan raised the same argument to the state
district court and the Minnesota Court of Appeals
without success. See State v. Corrigan, No. 70-CR—
16-14594, 2018 WL 3214271, at *3 (Minn. Ct. App.
July 2, 2018) (holding that “the evidence supports
Corrigan’s conviction based on proof beyond a
reasonable doubt” and thus “necessarily also meets
the much lower, probable-cause standard”).
Corrigan’s claims for unlawful arrest are also
barred by Heck v. Humphrey, which holds that “when
a state prisoner seeks damages in a § 1983 suit, the

7a
district court must consider whether a judgment in
favor of the plaintiff would necessarily imply the
invalidity of his conviction or sentence; if it would, the
complaint must be dismissed unless the plaintiff can
demonstrate that the conviction or sentence has
already been invalidated.” 512 U.S. 477, 487 (1984).
The plaintiff “must prove that the conviction Or
sentence has been reversed on direct appeal,
expunged by executive order, declared invalid by a
state tribunal authorized to make such a
determination, or called into question by a federal
court’s issuance of a writ of habeas corpus.” Id. at
486-87. As the R&R correctly concluded, Heck v.
Humphrey applies here because a judgment in favor
of Corrigan on his § 1983 claims for unlawful arrest
would necessarily imply the invalidity of his
conviction or sentence, and Corrigan has not proven
that his conviction or sentence has already been
reversed, expunged, invalidated, or called into
question by the grant of a writ of habeas corpus.
Additionally, had Corrigan’s false arrest claims not
been barred by Heck v. Humphrey, the Court agrees
with the R&R’s conclusion that probable cause existed
for Corrigan’s citation, charge, and prosecution. See
R&R at 18 n.9.
2. Fraud on the Court - Fraudulent Evidence
Corrigan next argues Bernier’s testimony at trial
was “the fraudulent, conspiratorial creation of
Defendant Bernier, Defendant Rhodus and/or
Defendant Rhodus’ office,” because Bernier’s
statements to the police did not describe Corrigan’s
behavior as aggressive or threatening. Obj. at 4.
As the R&R correctly recognized, Bernier is
entitled to absolute immunity from any claim that is
based on her testimony. See R&R at 33 (citing
Rehberg v. Paulk. 566 U.S. 356, 367, 369 (2012)).

8a
Similarly, Prosecutor Rhodus is entitled to absolute
prosecutorial immunity from suit for acts performed
in initiating Corrigan’s prosecution and presenting
the State’s case at trial. See R&R at 24 (citing
Reasonover v. St. Louis Cntv.. 447 F.3d 569, 580 (8th
Cir. 2006)).
3. Constitutional Issue
Corrigan next argues that Minnesota’s stalking
statute, Minn. Stat. § 609.749, is unconstitutional.
Obj. at 4-6. This claim, alleged in Count V of the
Amended Complaint, amounts to an attack on
Corrigan’s conviction. Because a finding in Corrigan’s
favor on this claim would imply the invalidity of his
conviction and Corrigan has not proven that his
conviction has already been reversed, expunged,
invalidated, or called into question by the grant of a
writ of habeas corpus, the claim is barred under Heck
v. Humphrey. 512 U.S. 477.
4. Heck v. Humphrey
Corrigan next argues that Heck v. Humphrey does
not apply to his claims because he was arrested
without a warrant. Obj. at 6. However, Heck v.
Humphrey makes no distinction for the manner of
arrest.
Corrigan further argues that Heck v. Humphrey
does not apply to released prisoners. Obj. at 6-7. This
argument Contradicts Eighth Circuit law, which holds
that Heck v. Humphrey bars collateral attacks on
still-valid state convictions, even when a criminal
defendant is no longer incarcerated. See Entzi v.
Redmann. 485 F.3d 998, 1003 (8th Cir. 2007) (holding
that “the IHeck v. Humphrey] principle barring
collateral attacks ... is not rendered inapplicable by
the fortuity that a convicted criminal is no longer
incarcerated”); Newmv v. Johnson. 758 F.3d 1008,
1009-12 (8th Cir. 2014). § 1983

9a
5. Claims Against Judge Wilton.
Corrigan next argues that the R&R erred in
concluding Judge Wilton is entitled to judicial
immunity from Corrigan’s suit for declaratory
judgment. Obj. at 8. Corrigan contends that judicial
immunity does not apply because Corrigan was
unlawfully arrested and thus Judge Wilton was acting
without jurisdiction. As discussed above, Corrigan
was not unlawfully arrested. Even if he had been,
judicial immunity would still apply because a judge is
entitled to absolute judicial immunity unless the
judge has acted in the “clear absence of all
jurisdiction.” Stump v. Sparkman. 435 U.S. 349, 357
(1978).
Judge Wilton was acting within his
jurisdiction in making the rulings Corrigan now
challenges. See Minn. Stat. 484:01, subd. 1 (stating
that district courts have original jurisdiction in all
civil and criminal cases).
Additionally, Corrigan’s Objection fails to address
the R&R’s alternative ground for recommending
dismissal of Corrigan’s claims against Judge Wilton:
that the claims must be dismissed for failure to state
a claim. See R&R at 16 n.7. The Court agrees with
the conclusion in the R&R that Corrigan has not
plausibly pled a due process claim or an Eighth
Amendment claim against Judge Wilton.
6. § 1983 Claims Against the Savage City Defendants
Corrigan next argues that the R&R erred in
recommending dismissal of his claims against the
Savage City Defendants. Obj. at 9. Corrigan contends
that Heck v. Humphrey does not apply to his claims
against the Savage City Defendants because the
officers lacked probable cause to arrest him. Heck v.
Humphrey again applies for the reasons discussed
above.

10a
Corrigan further argues that the officers violated
the First Amendment by arresting him in retaliation
for remaining silent and refusing to cooperate with the
investigation. This argument fails because the claim
is based on Corrigan’s erroneous assumption that he
was arrested.
Corrigan also contends that the officers violated
his Fifth Amendment right to remain silent by
subjecting him to custodial interrogation without a
Miranda2 warning. Again, Corrigan was not arrested
and thus was not in police custody. “No Miranda
warning is necessary for persons detained for a Terry
stop.” United States v. McGauley, 786 F.2d 888, 890
(8th Cir. 1986).
Corrigan also argues that he is entitled to
discovery on his Monell3 claim against the City of
Savage. Corrigan has failed to allege a constitutional
violation by the Savage City police officers, and thus
no Monell liability exists'for the City of Savage. See
Whitney v. City of St. Louis, 887 F.3d 857, 861 (8th
Cir. 2018) (“[Ajbsent a constitutional violation by a
city employee, there can be no § 1983 or Monell
liability for the City.”). With no viable claim,
discovery is inappropriate.
7. § 1983 Claims Against the County Defendants
a. Defendant Rhodus
Corrigan again argues that Defendant Rhodus is
not entitled to prosecutorial immunity because he
solicited false testimony from Defendant Bernier. Obj.
at 10. This argument is rejected for the reasons stated
in Paragraph III.B.2., above.
2 Miranda v. Arizona. 384 U.S. 436 (1966).
3 Monell v. Den’t of Soc. Servs.. 436 U.S. 658, 694 (1978).

11a
Corrigan also argues that absolute prosecutorial
immunity does not apply because Defendant Rhodus
was acting in an investigatory capacity rather than a
prosecutorial capacity when he met with Defendant
Bernier prior to trial. This argument is rejected
because meeting with a witness to prepare for her trial
testimony is a prosecutorial function that is protected
by absolute immunity. Reasonover. 447 F.3d at 580.
b. Probation Officer Hanson
Corrigan next objects to the R&R’s conclusion that
Probation Officer Hanson is entitled to quasi-judicial
immunity for preparing the PSI Report. Obj. at 11.
Corrigan contends Probation Officer Hanson’s actions
were administrative and she was not acting in
furtherance of a judicial decision. Obj. at 11. This
argument contradicts Eighth Circuit precedent
recognizing that “because presentence reports are so
closely associated with the exercise of a judicial
function, probation officers who prepare these reports
are entitled to absolute immunity.” Anton v. Getty, 78
F.3d 393, 396 (8th Cir. 1996). Additionally, Probation
Officer Hanson was acting in furtherance of a judicial
sentencing decision because Judge Wilton ordered
that a PSI Report be prepared for his use in Corrigan’s
sentencing. Am. Compl. 37.
Corrigan also argues that Probation Officer
Hanson is not entitled to immunity because her
recommendation of a 120-day sentence is based on
“bizarre questions” Probation Officer Hanson asked
Corrigan that were not related to his crime. However,
“[ajbsolute quasi-judicial immunity would afford only
illusory protection if it were lost the moment an officer
acted improperly.” Martin v. Hendren. 127 F.3d 720,
722 (8th Cir. 1997). Probation Officer Hanson is
entitled to absolute quasi-judicial immunity.

12a
IV. CONCLUSION
Based upon the foregoing, and all the files, records,
and proceedings herein, IT IS HEREBY ORDERED
that:
1. Plaintiff John L. Corrigan, Jr.’s Objection
[Docket No. 86] to Magistrate Judge Becky R.
Thorson’s January 14, 2019 Report and
Recommendation is OVERRULED;
2. The Report and Recommendation [Docket No.
85] is ADOPTED;
3. Defendant Judge Christian Wilton’s Motion to
Dismiss Amended Complaint [Docket No. 35] is
GRANTED;
4. Defendants City of Savage, Police Officer Gabe
Kerkaert, Police Officer Edward Culbreth,
Police Officer Kyle Klapperick, Police Officer
Alexandria Marklowitz, and Police Officer
Ashley Uthe’s Motion for Judgment on the
Pleadings [Docket No. 45] is GRANTED;
5. Defendants Assistant County Attorney Nelson
Rhodus, Scott County Sheriff Luke Hennen,
Probation Officer Lynn Hanson, and Scott
County’s Motion for Judgment on the Pleadings
[Docket No. 50] is GRANTED;
6. Defendant Amber Bernier’s Motion for
Judgment on the Pleadings [Docket No. 69] is
GRANTED; and

13a
7. Corrigan’s Amended Complaint [Docket No. 23]
is DISMISSED in its entirety. Counts I through
VI are dismissed with prejudice, and Count VII
is dismissed without prejudice.
LET JUDGMENT BE ENTERED
ACCORDINGLY.

BY THE COURT:
s/Ann D. Montgomery
ANN D. MONTGOMERY
U.S. DISTRICT JUDGE
Dated: April 4, 2019.

14a
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
John L. Corrigan, Jr.
Plaintiff,
v.
City of Savage, et.al.
Defendants.

Judgment In A
Civil Case
Civil No. 18-2257
ADM/BRT

Decision by Court. This action came to trial or hearing
before the Court. The issues have been tried or heard
and a decision has been rendered.

IT IS ORDERED AND ADJUDGED THAT:
1. Plaintiff John L. Corrigan, Jr.’s Objection
[Docket No. 86] to Magistrate Judge Becky R.
Thorson’s January 14, 2019 Report and
Recommendation is OVERRULED;
2. The Report and Recommendation [Docket No.
85] is ADOPTED;
3. Defendant Judge Christian Wilton’s Motion to
Dismiss Amended Complaint [Docket No. 35] is
GRANTED;
4. Defendants City of Savage, Police Officer Gabe
Kerkaert, Police Officer Edward Culbreth,
Police Officer Kyle Klapperick, Police Officer
Alexandria Marklowitz, and Police Officer
Ashley Uthe’s Motion for Judgment on the
Pleadings [Docket No. 45] is GRANTED;

15a
5. Defendants Assistant County Attorney Nelson
Rhodus, Scott County Sheriff Luke Hennen,
Probation Officer Lynn Hanson, and Scott
County’s Motion for Judgment on the Pleadings
[Docket No. 50] is GRANTED;
6. Defendant Amber Bernier’s Motion for
Judgment on the Pleadings [Docket No. 69] is
GRANTED; and
7. Corrigan’s Amended Complaint [Docket No. 23]
is DISMISSED in its entirety. Counts I through
VI are dismissed with prejudice, and Count VII
is dismissed without prejudice.
Date: April 5, 2019

KATE M. FOGARTY. CLERK
s/ Jennifer Beck
(By) Jennifer Beck, Deputy Clerk

(

16a
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
John L. Corrigan, Jr.
Plaintiff,
v.
City of Savage, et.al.
Defendants.

Report And
Recommendation
Civil No. 18-2257
ADM/BRT

John L. Corrigan, Jr., 1705 3rd Ave. W., Apt.
#6, Shakopee, MN 55379, pro se.
Daniel P. Jurtz, Esq., League of Minnesota
Cities, counsel for City of Savage Defendants.
Lateesa T. Ward, Esq., Ward & Ward PC,
counsel for Defendant Bernier.
Anna L. Yunker, Esq., and William J. Everett,
Esq., Everett & VanderWiel, PLLP, counsel for Scott
County Defendants.
Kathryn Iverson Landrum, Esq., Minnesota
Attorney General’s Office, counsel for Defendant
Judge Wilton.
BECKY THORSON, United States Magistrate Judge
INTRODUCTION
This matter is before the Court on Defendant
Judge Christian Wilton’s Motion to Dismiss Amended
Complaint (Doc. No. 35), Defendants City of Savage,
Police Officer Kerkaert, Police Officer Culbreth,
Police Officer Kyle Klapperick, Police Officer
Alexandria Marklowitz, and Police Officer Uthe’s
Motion for Judgment on the Pleadings (Doc. No. 45),
Defendants Nelson Rhodus, Luke Henne, Lynn
Hanson, and Scott County’s Motion for Judgment on
the Pleadings (Doc. No. 50), and the Motion for
Judgment on the Pleadings of Defendant Amber

17a
Bernier (Doc. No. 69). The motions have been referred
to this Court for a Report and Recommendation under
28 U.S.C. § 636 and D. Minn. LR 72.1. (Doc. No. 14.)
On November 8, 2018, this Court held a hearing on
the matter in which counsel appeared on behalf of
Defendants and Plaintiff appeared pro se. (See Doc.
No. 84.) For the reasons stated below, this Court
recommends that Defendants’ motions be granted and
Plaintiff s pro se Complaint be dismissed.
BACKGROUND
The facts underlying Plaintiff Corrigan’s case
all relate in one way or another to an incident that
occurred while driving on August 3, 2016, which
resulted in Corrigan being charged and convicted of
stalking, in violation of Minn. Stat. § 609.749. (See
Doc. No. 11, Aff. of Kathryn Iverson Landrum
(“Landrum Aff.”) Tf 3, Ex. B, State of Minnesota u. John
Louis Corrigan, Court File No. 70-CR-16-14594 (Scott
Cnty. Dist. Ct. July 2, 2018).) The facts, as described
by the Minnesota Court of Appeals, are as follows:
Amber Bernier was homebound from
work on an evening in August 2016 and
heading eastward on Highway 169 north when
she encountered John Corrigan in Shakopee.
Soon the three-lane roadway would split in two,
with cars in the left lane bending north (on
Highway 169), cars in the right lane continuing
straight (on Highway 13), and cars in the
middle lane having the option to choose either
route. Corrigan’s car was in the far left lane,
and Bernier’s was immediately behind it.
Bernier moved to the center lane, intending to
continue straight and avoid the northward
bend. Corrigan also changed lanes in front of
her. Bernier then pulled into the far right lane

18a
and passed Corrigan to her left. Neither liked
the other’s driving. As Bernier passed, each
driver shot angry glances at the other.
Bernier continued in her lane toward the
right as the highway divided. And at first
Corrigan followed the middle lane toward the
left, traveling on Highway 169 north after the
point where the middle lane widened and then
split in two. But then Bernier saw in her
rearview mirror that Corrigan abruptly
changed course and crossed the double white
lines to continue in Bernier’s direction. And he
next moved into the right lane directly behind
her onto Highway 13. He followed so closely
that there was no room for any other car to fit
between them.
Highway 13 also soon divided; drivers
can continue straight, heading east, or they can
bear right, heading south. Bernier moved into
the right- hand lane heading south, and
Corrigan followed closely behind her. After
Bernier began south, she moved two lanes to
her left, into the left-turn lane of the first
intersection. She saw in her mirror that
Corrigan, too, crossed over two lanes and
entered the turn lane, cutting in front of
another car to position himself behind Bernier.
By this point, Bernier was frightened.
Rather than turn left, Bernier attempted
to evade Corrigan by pulling out of the turn
lane and back into southbound traffic, moving
straight through the intersection. She saw in
her mirror that Corrigan likewise changed
course, following right behind her. Bernier
continued through other intersections until she
came to McColl Drive, where she moved into the

19a
left-turn lane and turned east. She saw in her
mirror that, again, Corrigan did the same,
following her.
As Bernier traveled east on McColl, she
received a call from her husband. Bernier told
him that she was being followed, and her
husband advised her to call the police. She
pulled into the driveway of the Savage fire
department and stopped. Corrigan pulled
beside her and stopped. Bernier lowered her
window and told Corrigan to stop following her.
Corrigan stared at her but said nothing. Then
Bernier yelled, “Stop following me or I’m going
to call the police!” Corrigan responded, “I
figured you already would have.”
Bernier dialed 9-1-1 and spoke with a
dispatcher, who stayed on the line and directed
her to the nearby Savage police station. Bernier
parked outside the front doors of the station,
and Corrigan followed her and parked across
the street. Police arrived.
(Id. at 2-4.)
Corrigan describes what happens next in his
Amended Complaint. Police Officer Kerkaert arrived
on the scene and began asking Corrigan questions.
(Am. Compl. 23.) Corrigan placed his passport on
the hood of his vehicle. (Id.) Police Officers Edward
Culbreth, Alexandria Marklowitz, Ashley Uthe, and
Sergeant Kyle Klapperick then arrived on scene. (Am.
Compl.
24, 26.) Uthe and Marklowitz interviewed
Bernier, while the other officers tried to speak to
Corrigan. (Id.) Corrigan was given a citation for fifth
degree assault and then left the scene. (Am. Compl. U
27.) Assistant County Attorney Nelson Rhodus later
amended the charge to stalking under Minn. Stat. §
609.749, subd. 2(2). (Am. Compl. ^ 33; Doc. No. 53,

20a
Decl. of Anna L. Yunker (“Yunker Deck”) t 3, Ex. 3 at
1.)
Judge Christian Wilton presided over
Corrigan’s criminal case and following the jury-trial
conviction, sentenced him to 120-days in jail. (Am.
Compl.
36-37.) Before the sentencing, Corrigan
had filed a post-trial motion requesting a new trial
and vacation of the judgment, arguing that the
Minnesota stalking statute was unconstitutional; that
Bernier had committed perjury during her trial
testimony; that Rhodus had improperly coached
Bernier prior to her testimony; and that Rhodus knew
Bernier’s trial testimony was false. (See Yunker Decl.
1 3, Ex. 4 at 1-2.) Judge Wilton denied the motions
{Id. at 5.) Also prior to sentencing, Judge Wilton
ordered Scott County Community Corrections to
prepare a Pre-Sentence Investigation (“PSI”) report.
(Am. Compl. If 37.) The report was completed by
Probation Officer Lynn Hanson {Id. at 38.) Hanson
concluded that Corrigan would not be amenable to
probation and recommended that he serve 120 days in
the Scott County Jail. {Id.) Judge Wilton imposed the
120-day sentence as recommended,
Corrigan
appealed the conviction and sentence; the Minnesota
Court of Appeals affirmed, and the Minnesota
Supreme Court denied certiorari.
On August 2, 2018, Corrigan filed a Complaint
pro se with this Court. (Doc. No. 1.) The Complaint
was thereafter amended on September 5, 2018. (Doc.
No. 23, Am. Compl.) Corrigan has sued the City of
Savage, Scott County, Police Officers Kyle
Klapperick, Alexandria Marklowitz, Gabe Kerkaert,
Edward Culbreth, and Ashley Uthe, Scott County
Sheriff Luke Hennen, Probation Officer Lynn Hanson,
Assistant Scott County Attorney Nelson Rhodus,
Judge Wilton, and the victim of the underlying

21a
stalking charge, Amber Bernier. The Amended
Complaint contains federal civil rights claims for
relief “under 42 U.S.C. § 1983 and rais[es]
supplemental state-law claims concerning the actions
... in unlawfully arresting, maliciously prosecuting,
denying due process,
prosecutorial misconduct,
denying access to the courts and cruel and unusual
punishment.” (Am. Compl. t 1.) Corrigan also alleges
the “actions and conduct of the defendants are the
result of a policy, practice, custom, and deliberate
indifference on the part of the Defendants City of
Savage and Scott County.” (Id.) In addition, he alleges
that Defendant Bernier, although a private
individual, “was acting for the state which exercised
coercive power or significant encouragement, either
overt or covert, where the choice to continue is deemed
to be that of the state,” and that Bernier “acted jointly
with Defendant Police Officers and Defendant Rhodus
to deprive the Plaintiff of his constitutional rights to
be free from unlawful seizure and his right to due
process through a fair trial.” (Id.)
Corrigan requests both compensatory and
punitive damages for the following asserted claims in
this case:
• Against the Defendant City Police Officers and
Defendant Bernier (the victim), Corrigan
asserts a violation of his First, Fourth, Fifth,
and Fourteenth Amendment rights relating to
free speech, unlawful arrest, right to remain
silent, retaliatory prosecution, and malicious
prosecution (Count I).
• Against the City of Savage, Corrigan asserts a
violation of his First, Fourth, Fifth, and
Fourteenth Amendment rights relating to
deficient “training, supervision, investigation,

22a

•

•

•

•

;or discipline” regarding the stop, detention,
arrest, and charge. (Count II).
Against Assistant Scott County Attorney
Nelson Rhodus, Corrigan asserts a violation of
procedural due process (Count III), and claims
that the stalking statute under which he was
charged is unconstitutional (Count V).
Against Probation Officer Lynn Hanson,
Corrigan asserts a violation of the Eighth
Amendment by imposing a cruel and unusual
punishment of 120 days in jail (Count IV).
Against Scott County Sheriff Luke Hennen,
Probation Officer Lynn Hanson, and Scott
County, Corrigan asserts a violation of his
First, Sixth, Eighth, and Fourteenth
Amendment rights regarding “training,
supervision, investigation, or discipline in the
areas of... providing] prisoners with ‘adequate
law libraries or adequate assistance from
persons trained in the law’” and “[t]he proper
exercise of probation officer powers, including
but not limited to the investigation, analysis,
and recommendation of the Pre-Sentence
Investigation report” (Count VI).
Against all of the Defendant City Police
Officers, Corrigan asserts state law claims for
false arrest, false imprisonment, denial of due
process, intentional infliction of emotional
distress, and malicious prosecution; against
Defendant Rhodus, Corrigan asserts a claim for
prosecutorial misconduct; against the victim
Defendant Bernier, Corrigan asserts claims for
misrepresentation, perjury, and intentional
infliction of emotional distress; and against
Defendants Hennen, Hanson, the City of
Savage, and the Scott County, Corrigan asserts

23a
a claim for intentional infliction of emotional
distress (Count VII).
Against Judge Wilton, Plaintiff seeks declaratory
relief (no monetary relief) for a violation of procedural
due process (Count III), and for violation of the Eighth
Amendment by imposing a cruel and unusual
punishment of 120 days in jail (Count IV).
DISCUSSION
A. Standard of Review
In deciding a motion to dismiss for failure to
state a claim upon which relief can be granted under
Rule 12(b)(6) of the Federal Rules of Civil Procedure,
the Court must accept as true all factual allegations
in the complaint and view them in the light most
favorable to the Plaintiff. Schaller Tel. Co. v. Golden
Sky Sys., Inc., 298 F.3d 736, 740 (8th Cir. 2002). In
doing so, however, a court need not accept as true
wholly conclusory allegations, Hanten u. Sch. Dist. of
Riverview Gardens, 183 F.3d 799, 805 (8th Cir. 1999),
or legal conclusions drawn by the pleader from the
facts alleged. Westcott v. City of Omaha, 901 F.2d
1486, 1488 (8th Cir. 1990). A court may consider the
complaint, matters of public record, orders, materials
embraced by the complaint, and exhibits attached to
the complaint in deciding a motion to dismiss under
Rule 12(b)(6) of the Federal Rules of Civil Procedure.
Porous Media Corp. v. Pall Corp., 186 F.3d 1077, 1079
(8th Cir. 1999).
To survive a motion to dismiss, a complaint
must contain “enough facts to state a claim to relief
that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). Although a
complaint need not contain “detailed factual
allegations,” it must contain facts with enough
specificity “to raise a right to relief above the
speculative level.” Id. at 555. This standard “calls for

24a
enough fact[s] to raise a reasonable expectation that
discovery will reveal evidence of [the claim].” Id. at
556. Whether a complaint states a claim is a question
of law. Morton v. Becker, 793 F.2d 185, 187 (8th Cir.
1986). “Rule 12(b)(6) authorizes a court to dismiss a
claim on the basis of a dispositive issue of law.”
Neitzke u. Williams, 490 U.S. 319, 326 (1989). In
addition, this court notes that pro se complaints are
held to less stringent standards than formal pleadings
drafted by lawyers. See Haines u. Kerner, 404 U.S.
519, 520 (1972) (per curiam). However, even a pro se
complaint must allege facts, and not just bare,
unsupported, legal conclusions. Martin v. Sargent,
780 F.2d 1334, 1337 (8th Cir. 1985) (“Although it is to
be liberally construed, a pro se complaint must contain
specific facts supporting its conclusions.”).
Judgment on the pleadings is appropriate when
there are no issues of material fact and the moving
party is entitled to judgment as a matter of law.
Porous Media Corp., 186 F.3d at 1079. In making this
determination, the court must “accept as true all
factual allegations set out in the complaint and . . .
construe the complaint in the light most favorable to
the plaintiff.” Ashley Cnty., Ark. v. Pfizer, Inc., 552
F.3d 659, 665 (8th Cir. 2009) (quotations omitted).
When deciding a motion for judgment on the
pleadings, “the court may consider the pleadings
themselves, materials embraced by the pleadings,
exhibits attached to the pleadings, and matters of
public record.” Mills u. City of Grand Forks, 614 F.3d
495, 498 (8th Cir. 2010); see also Fraenkel v. Messerli
& Kramer, P.A., No. Civ. 04-1072 (JRT/FLN), 2004
WL 1765309, at *2 (D. Minn. July 29, 2004).
Defendants have submitted the register of
actions in Corrigan’s criminal case, a copy of state
court decisions in Corrigan’s state criminal action

25a
along with other state court and appellate filings, and
the Minnesota Court of Appeals opinion on Corrigan’s
appeal. (Doc. No. 11, Aff. of Kathryn Iverson Landrum
(“Landrum Aff.”) UU 2 & 3, Exs. A & B; Doc. No. 48,
Aff. of Daniel P. Kurtz (“Kurtz Aff.”) UU 3, 6, 7, Exs. B,
D, E; Doc. No. 53, Decl. of Anna L. Yunker (“Yunker
Deck”) HU 2, 3. Exs. 2—15).) Corrigan does not dispute
the authenticity of these documents. The Court will
consider these matters of public record in deciding
Defendants’ motions to dismiss and will not convert
those motions into motions for summary judgment.1
§ 1983 Claims
Corrigan brings § 1983 claims against all of the
Defendants for various constitutional violations,
brings a Monell claims against the City of Savage,
Scott County, Scott County Sheriff Hennen, and
Probation Officer Hanson, and brings additional state
law claims against all of the Defendants except Judge
Wilton. The Court will address Corrigan’s § 1983
claims as they relate to Judge Wilton, the City
Defendants,2 the County Defendants,3 and Bernier in
1 The City Defendants also submit a copy of a squad car video.
(Kurtz Aff. U 4, Ex. C.) Even though this video was referenced by
Plaintiff in his Amended Complaint, this Court did not consider
the video in making its decisions on the pending motions.
Defendant Bernier submitted a copy of the transcript of the 911
call with the Savage Police Department related to the underlying
incident. (Doc. No. 63, Decl. of Lateesa T. Ward (“Ward Decl.”) U
2, Ex. 1.) This Court also did not consider this transcript in
making its decisions on the pending motions. Copies of Bernier’s
Harassment documents and trial transcripts were also not
considered. (See Ward Decl. KU 3, 4, Exs. 2, 3.)
2 The City, Defendants include the City of Savage, and Police
Officers Kerkaert, Culbreth, Klapperick, Marklowitz, and Uthe.
3 The County Defendants include Scott County, Scott County
Sheriff .Hennen, Probation Officer Hanson, and Assistant Scott
County Attorney Rhodus

26a
turn, and then address the remaining state-law
claims. Before doing so, however, given the
contentions in the Complaint that the state court
proceedings violated Plaintiffs constitutional rights,
Plaintiffs claims raise questions of this Court’s
subject-matter jurisdiction and whether his claims are
barred by the Rooker-Feldman doctrine, issues that
must be addressed first.
1.
Jurisdiction
“Subject matter jurisdiction ... is a threshold
requirement which must be assured in every federal
case.” Turner u. Armontrout, 922 F.2d 492, 493 (8th
Cir. 1991). “If the court determines at any time that it
lacks subject-matter jurisdiction, the court must
dismiss the action.” Fed. R. Civ. P. 12(h)(3).
Application of the Rooker-Feldman doctrine is
jurisdictional. Lawrence u. City of St. Paul, 740 F.
Supp. 2d 1026, 1036 (D. Minn. 2010). Defendant
Judge Wilton argues that this Court lacks subjectmatter jurisdiction over Plaintiffs claims against him
under the Rooker-Feldman doctrine.4 This Court
disagrees.
Under the Rooker-Feldman doctrine, a federal
district court lacks subject-matter jurisdiction over a
lawsuit brought by plaintiffs who “ha[ve] litigated and
lost in state court” and who “essentially invite []
federal courts of first instance to review and reverse
unfavorable state-court judgments.” Exxon Mobil
Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 283
(2005); see also District of Columbia Court of Appeals
v. Feldman, 460 U.S. 462, 486-87 (1983) (holding that
federal district courts may not exercise judgment over
4 Bernier notes that she agrees with the argument raised by
Judge Wilton. (Doc. No. 62, Def. Amber Bernier’s Mem. of Law in
Supp. of Mot. to Dismiss 6, n.2.)
)

27a
issues that are “inextricably intertwined” with a prior
state-court judgment); Rooker v. Fidelity Trust Co.,
263 U.S. 413, 416 (1923) (holding that federal district
courts have no appellate jurisdiction over state
courts). Although Corrigan asks for “declaratory
judgment for constitutional violations (due process
and cruel and unusual punishment) by Judge Wilton”
(Am. Compl at 18, Relief), he is not asking this Court
to reverse or otherwise set aside his state-court
conviction.5 Therefore, Corrigan “plainly has not
repaired to federal court to undo the [Minnesota]
judgment [against him].” Exxon Mobil Corp., 544 U.S.
at 293. Thus, this Court is not deprived of subjectmatter jurisdiction by the Rooker-Feldman doctrine.
2.
§ 1983 Claims against Judge Wilton
Even though this Court has jurisdiction over
the claims asserted against Judge Wilton, the claims
should nonetheless be dismissed because Judge
Wilton is immune based on the doctrine of absolute
judicial immunity. “The immunity of a judge for acts
5 While in his claims against Judge Wilton, Corrigan asserts
Judge Wilton ruled incorrectly on the issues of probable cause,
proper jury instructions, post-verdict motions, a stay motion, and
sentencing (Doc. No. 23, Am. Compl. If 37), and this Court would
not have jurisdiction to review those rulings, Plaintiff does not
seek a reversal of those decisions, but instead a declaration that
his constitutional rights have been violated. (See Doc. No. 78,
Pl.’s Mem. of Law in Opp’n to Def. Judge Christian Wilton’s Mem.
of Law in Supp. of Mot. to Dismiss 2 (“Plaintiff is not seeking
challenges to his state-court decision. Plaintiff was convicted of
stalking and spent 79 days in jail of his 120-day sentence. It
would do Plaintiff no good to have his conviction overturned — the
damage is already done.”).) This Court is not altogether certain
whether Plaintiff is expecting a declaratory judgment to have an
effect on the prior state court decisions, his sentence, or his
record. However, looking at the language asserted in the
Amended Complaint, Plaintiff has not requested this Court to
reverse or otherwise set aside his state-court conviction.

28a
within his jurisdiction has roots extending to the
earliest days of the common law.” Imbler v. Pachtman,
424 U.S. 409, 423 n.20 (1976). “[Jjudicial immunity is
an immunity from suit, not just from ultimate
assessment of damages.” Mireles v. Waco, 502 U.S. 9,
11 (1991). “The doctrine therefore applies to suits for
injunctive relief as well as claims for money damages.”
Edlund v. Montgomery, 355 F. Supp. 2d 987, 990 (D.
Minn. 2005). In addition, “judicial immunity is not
overcome by allegations of bad faith or malice,”
Mireles, 502 U.S. at 11, and it “applies even when the
judge is accused of acting maliciously and corruptly[.]”
Pierson v. Ray, 386 U.S. 547, 554 (1967). Allegations
of conspiracy are also insufficient to overcome the
immunity. See Moses v. Parwatikar, 813 F.2d 891,
892-93 (8th Cir. 1987).
Both Corrigan’s procedural due process claim
(Count III) and his Eighth Amendment claim (Count
IV) relate exclusively to Judge Wilton’s decisions
made as a judge presiding over Plaintiffs criminal
case. Judge Wilton was acting within his jurisdiction
when he made the statements and rulings that
Corrigan complains about, including the imposition of
the 120-day sentence. See Minn. Stat. § 484.01, subd.
1 (stating that state district courts have original
jurisdiction in all civil and criminal cases). Any
allegations of conspiracy, bad faith, malice, or fraud
do not change the result. Judge Wilton is entitled to
absolute judicial immunity against Corrigan’s claims.
The fact that Corrigan has sued Judge Wilton
only in his official capacity and only for declaratory
relief does not defeat the immunity in this instance.
Traditionally, claims for prospective injunctive relief
have been, permitted pursuant to 42 U.S.C. § 1983
against judicial officers acting in their official
capacities. See Pulliam v. Allen, 466 U.S. 522, 541-42

29a
(1984). However, after Pulliam, Congress enacted the
Federal Courts Improvement Act of 1996 (“FCIA”),
Pub.L. No. 104-317, and legislatively reversed
Pulliam in several important respects. Relevant here,
the FCIA amended 42 U.S.C. § 1983 to state that “. . .
in any action brought against a judicial officer for an
act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless
a declaratory decree was violated or declaratory relief
was unavailable.” 42 U.S.C. § 1983 (amended Oct. 19,
1996 by Pub.L. 104-317, Title III, § 309(c), 110 Stat.
3853). In addition, claims for declaratory and
equitable relief “[are] not appropriate where an
adequate remedy at law exists.” Schlegel v. Holder,
No. 13-cv-3251, 2014 WL 12607718, at *4 (D. Minn.
2014). “An adequate remedy at law exists when the
acts of a judicial officer can be reviewed on appeal or
by extraordinary writs.” Id. (citing Mullis v. U.S.
Bankr. Court oftheDist. ofNev., 828 F.2d 1385,139294 (9th Cir. 1987))6; see French v. Lewis, 163 F.3d 601
(Table), 1998 WL 702294, at *1 (8th Cir. Oct. 9, 1998)
(unpublished opinion) (affirming dismissal of
plaintiffs prospective injunctive claims against a
presiding judge in plaintiffs criminal proceeding
where there was no indication that no adequate
6 In Mullis, the court stated: There is no need to carve out an
exception to judicial immunity to permit declaratory and
injunctive relief against federal officers. Should a federal judge .
. . violate a litigant’s constitutional rights in a proceeding
pending in federal court, Congress has provided carefully
structured procedures for taking appeals .... To
allow
an
action for declaratory and injunctive relief against federal
officials who would be entitled to judicial immunity from
damages merely engenders unnecessary confusion and
multiplicity of litigation. 828 F.2d at 1394 (emphasis removed).
This Court finds this logic equally applicable to state court judges
and state court appeals processes as well.

30a
remedy at law existed). Because Corrigan had an
adequate remedy at law—including the state court
appeal process—to review the rulings by Judge Wilton
that he now challenges, and because Corrigan does
not allege that Judge Wilton violated a declaratory
decree or that declaratory relief was unavailable,
either the doctrine of absolute judicial immunity bars
Corrigan’s suit against Judge Wilton—see, e.g., Reilly
v. Weiss, No. 97-CV-05883, 1998 WL 1110695, at *1,
n.2 (D.N.J. June 15, 1998), affd, 189 F.3d 464 (3d Cir.
1999); see also Moore v. Brewster, 96 F.3d 1240,124344 (9th Cir. 1996) (concluding that the judicial
immunity extends to § 1983 actions for declaratory
and injunctive relief), superseded by statute on other
grounds; Rivera v. Green, 775 F.2d 1381, 1384 (9th
Cir. 1985) (applying absolute judicial immunity to a
justice of the peace for acts performed in his official
capacity)—or the declaratory relief that Corrigan
seeks is not appropriate. See Schlegel, 2014 WL
12607718, at *4 (stating declaratory and equitable
relief not appropriate); see also Davies v. Doi, No. 0800548, 2009 1561579, at *3 (D. Haw. June 2, 2009)
(stating “absolute judicial immunity affords immunity
from suits based on judicial acts regardless of what
type of relief Plaintiff sought[,]” and even if the judge
was not entitled to judicial immunity, the plaintiff
“ha[d] an adequate remedy at law through his
pending State appeal”). For these reasons, Counts III
and IV against Judge Wilton should be dismissed.7
7 Even if Judge Wilton were not immune from Corrigan’s claims,
the claims should nevertheless also be dismissed for failure to
state a claim. Corrigan asserts that Defendant Judge Wilton
violated his due process rights. However, Corrigan does not
explain in any meaningful way what was deficient about the
process he received. Instead, public records demonstrate that

31a
3.

§

1983

Claims

against

the

City

Defendants
Corrigan asserts violations of his First, Fourth,
Fifth, and Fourteenth Amendment rights against the
City Police Officers “relating to free speech, unlawful
arrest, right to 7 .
remain silent, retaliatory
prosecution, and malicious prosecution,” and against
the City of Savage relating to deficient “training,
supervision, investigation, or discipline” regarding the
stop, detention, arrest, and charge. (Am. Compl. §§ 42,
43 (Counts I & II).)
a. Heck v. Humphrey - Fourth and Fourteenth
Amendments
Unlawful Arrest and
Malicious Prosecution
Corrigan asserts § 1983 claims for unlawful
arrest and malicious prosecution against the
Corrigan was provided with notice and an opportunity to be
heard On all issues pertaining to his criminal case. (See Doc. No.
11, Aff. of Kathryn Iverson Landrum (“Landrum Aff.”) *H[ 2 & 3,
Exs. A & B.) Corrigan’s claim seems to be based on alleged “bias
and prejudice” by Judge Wilton in his rulings. (Am. Compl. f 37.)
But, the Minnesota Court of Appeals already rejected Corrigan’s
claims of impartiality. (Landrum Aff. K 3, Ex. B at 5-6.) Because
Corrigan has not plausibly pled a procedural due process claim
against Judge Wilton, that claim should be dismissed.
Corrigan also asserts that Defendant Judge Wilton
violated his Eighth Amendment rights against cruel and unusual
punishment when he sentenced Corrigan to 120 days in jail. The
Eighth Amendment, however, “does not require strict
proportionality between crime and sentence but rather forbids
only extreme sentences that are grossly disproportionate to the
crime.” Graham v. Florida, 560 U.S. 48, 59—60 (2010) (quotations
omitted). Courts uphold far longer sentences for low-level
offenses. See, e.g., Harmelin v. Michigan, 501 U.S. 957, 994-96
(1991) (upholding life without parole sentence for possessing
cocaine); Rummel v. Estelle, 445 U.S. 263, 285 (1980) (upholding
life sentence for obtaining money by false pretenses). Therefore,
Corrigan’s Eighth Amendment claim should be dismissed as a
matter of law

32a
individual City Police Officers in Count I of his
Amended Complaint. These claims are barred under
Heck v. Humphrey, 512 U.S. 477 (1994). In Heck v.
Humphrey, the Supreme Court said:
[W]hen a state prisoner seeks damages
in a § 1983 suit, the district court must consider
whether a judgment in favor of the plaintiff
would necessarily imply the invalidity of his
conviction or sentence; if it would, the
complaint must be dismissed unless the
plaintiff can demonstrate that the conviction or
sentence has already been invalidated. But if
the district court determines that the plaintiffs
action, even if successful, will not demonstrate
the invalidity of any outstanding criminal
judgment against the plaintiff, the action
should be allowed to proceed, [] in the absence of
some other bar to the suit.
512 U.S. 477, 487 (1994).8 A judgment in favor of
Corrigan for false arrest or malicious prosecution
would necessarily imply the invalidity of his
conviction or sentence. Therefore, his conviction bars
his § 1983 claims for false arrest and malicious

8 Corrigan argues that Heck u. Humphrey does not bar his claims
because he had completed his sentence and he is no longer a
custodial inmate. This is contrary to current law in the Eighth
Circuit. See Entzi v. Redmann, 485 F.3d 998, 1003 (8th Cir. 2007)
(holding that a plaintiffs § 1983 claims were barred by Heck,
even though the plaintiff was no longer in custody and a writ of
habeas corpus was no longer available to him); see also Newmy u.
Johnson, 758 F.3d 1008, 1009-12 (8th Cir. 2014) (confirming its
position that Heck “impose [s] a universal favorable termination
requirement on all § 1983 plaintiffs attacking the validity of their
conviction or sentence”).

33a
prosecution and they must be dismissed as a matter of
law.9
b. First
Amendment
Retaliatory
Prosecution10
To the extent Corrigan’s First Amendment
claim is based on allegedly retaliatory prosecution,
that claim fails. “[A] plaintiff asserting a § 1983 claim
9

Moreover, “[a]n officer has probable cause to make a
warrantless arrest when the facts and circumstances are
sufficient to lead a reasonable person to believe that the
defendant has committed or is committing an offense.” Fisher v.
Wal-Mart Stores, Inc., 619 F.3d 811, 816 (8th Cir. 2010)
(quotations omitted). Here, the facts are not in dispute, and this
Court concludes there was probable cause for Corrigan’s citation,
charge, and prosecution. Therefore, even if the false arrest and
malicious prosecution claims were not barred by Heck v.
Humphrey, the claims would still fail as a matter of law because
the later arrest was supported by probable cause. See id. at 81617 (8th Cir. 2010) (stating that in a Fourth Amendment § 1983
false arrest claim, the relevant inquiry is whether the officers
had probable cause to arrest the plaintiff); see also Devenpeck v.
Alford, 543 U.S. 146, 153-56 (2004) (finding that even if an
officer invokes the wrong statute at the time of citation or arrest,
probable cause still exists when the facts known to the officer
provided probable cause for the violation of some law); Malady v.
Crunk, 902 F.2d 10, 11-12 (8th Cir. 1990) (holding that a
plaintiffs conviction is a defense to a § 1983 false arrest claim).
(Corrigan was not “under arrest” upon the arrival of the police in
the parking lot as he suggests; instead the police conducted a
valid Terry stop (see further discussion on the Terry stop below).)
The same is true for the malicious prosecution claim. See
Harrington v. City of Council Bluffs, Iowa, 678 F.3d 676, 679 (8th
Cir. 2012) (“Sufficient probable cause would defeat the appellees’
§ 1983 claims based on malicious prosecution.”).
10 Corrigan also lists “free speech” as part of his Count I First
Amendment claim. However, Corrigan alleges no facts that
would support any sort of free speech violation. To the extent
Corrigan was linking his “free speech” claim with his “right to
remain silent” claim, that claim should be dismissed for the
reasons stated below.

34a
for retaliatory prosecution must show a lack of
probable cause for the underlying charge.” Lawrence,
740 F. Supp. 2d at 1043 (citing Hartman u. Moore, 547
U.S. 250, 265—66 (2006)). The trial court made a
finding of probable cause in Corrigan’s state-court
prosecution, and as previously stated by this Court,
the finding of probable cause was supported by the
facts alleged in Corrigan’s Amended Complaint.11
c. Fifth Amendment - “right to remain silent”
In Count I, Corrigan alleges constitutional
violations “relating to free speech,” and the “right to
remain silent.” (Am. Compl. § 42.) To the extent
Corrigan is asserting a claim under Miranda u.
Arizona, 384 U.S. 436 (1966), the claim fails because
Miranda warnings are only triggered by a “custodial
interrogation.” Id. at 444. Here, there was no custodial
interrogation, but instead was an investigative Terry
stop.
In Miranda v. Arizona, 384 U.S. 436 (1966), the
Supreme Court held that a law enforcement officer,
prior to conducting a custodial interrogation, must
advise the suspect of his right to be free from
compulsory self-incrimination and to the assistance of
counsel. Following Miranda, the Supreme Court held
in Terry u. Ohio, 392 U.S. 1 (1968), that a police officer
with reasonable suspicion that criminal activity is
afoot may briefly detain a suspect to investigate the
circumstances giving rise to that suspicion. “Typically,
this means that the officer may ask the detainee a
11 Corrigan admits to following Bernier for approximately fifteen
minutes, admits that when she stopped to question why he was
following her, he stated “that the police should be called,”—a
state court record indicates that he responded “I figured you
would’ve [called the police] eventually” (Kurtz Aff. % 6, Ex. D at
3)—and admits that Bernier wanted him to stop following her.
(Am. Compl. UU 20, 21, 28.

35a
moderate number of questions to determine his
identity and to try to obtain information confirming or
dispelling the officer’s suspicions.” Berkemer v.
McCarty, 468 U.S. 420, 439-40 (1984). Therefore,
Corrigan’s allegation that he was not free to leave
during the initial questioning by the officers does not
mean he was in custody (or under arrest as Corrigan
claims) for Miranda purposes. See United States v.
Pelayo-Ruelas, 345 F.3d 589, 592 (8th Cir. 2003)
(rejecting defendant’s contention that a person is in
custody for Miranda purposes whenever a reasonable
person would not feel free to leave); (see Am. Compl.
24 (“Until the citation and passport were handed over
to the Plaintiff, he was not free to leave.”)). And
because “[n]o Miranda warning is necessary for
persons detained for a Terry stop,” United States u.
McGauley, 786 F.2d 888, 890 (8th Cir. 1986),
Corrigan’s Miranda rights were not violated here.
The Fifth Amendment also protects against
coerced confessions. Corrigan alleges that he was
“harassed, intimidated, threatened and insulted
throughout the questioning.” (Am. Compl. f 25.) If
Corrigan was meaning to assert a Fifth Amendment
violation on this basis, his claim fails for at least two
reasons. First, Corrigan alleges no confession (nor was
there one) that could have been coerced. And second,
Plaintiffs one-line allegation in his Amended
Complaint is conclusory and he alleges no facts that
would plausibly support a finding of harassment,
intimidation, threats, insults, or any other sort of
coercion.
For these reasons, Corrigan’s Fifth Amendment
claims should be dismissed,
d. Monell claim
Corrigan asserts a Monell claim against the
City of Savage in Count II of his Amended Complaint.

36a
(Am. Compl. 43.) Under Monell v. Department of
Social Services, a government entity may be held
liable under § 1983 only “when execution of a
government’s policy or custom, whether made by its
lawmakers or by those whose edicts or acts may fairly
be said to represent official policy, inflicts the injury .
. .” 436 U.S. 658, 694 (1978). As this Court has
explained above, all of Corrigan’s claims against all of
the City of Savage Defendants (i.e., Police Officers)
must be dismissed. Therefore, the City cannot be held
liable under Monell. See, e.g., Whitney v. City of St.
Louis, Mo., 887 F.3d 857, 861 (8th Cir. 2018)
(“[AJbsent a constitutional violation by a city
employee, there can be no § 1983 or Monell liability for
the City.”).
Further, even if any of the claims against the
City Defendants survived, to maintain a claim that “a
municipality should have done more to prevent
constitutional violations by its employees, a plaintiff
must establish the existence of a ‘policy’ by
demonstrating that the inadequacies were a product
of deliberate or conscious choice by policymakers.”
Szabla v. City of Brooklyn Park, 486 F.3d 385, 390 (8th
Cir. 2007) (quoting City of Canton v. Harris, 489 U.S.
378, 389 (1989)). The city policy or custom must be the
“moving force” behind the constitutional violation.
Monell, 436 U.S. at 694. Corrigan has not pleaded
facts that would give rise to an inference that the
problems he complains of
are widespread or
persistent, or that the City has a history of deliberate
indifference
toward
training,
supervision,
investigation, or discipline relating to the areas of
lawful stops, detention, arrests, or charging offenses.
He has also alleged no facts supporting that the City
was on notice that the Defendant Police Officers or
other officers had a propensity to commit

37a
unconstitutional acts or that their training program
was so inadequate that it was likely to result in
constitutional violations. An “isolated incident”
without notice of the misconduct cannot support a
claim that the City was deliberately indifferent to
unconstitutional policies, patterns, practices, and
customs by its police force, nor does it support a failure
to supervise or train claim. Szabla, 486 F.3d at 393;
see also Larkin u. St. Louis Hous. Auth. Dev. Corp.,
355 F.3d 1114, 1117 (8th Cir. 2004) (stating evidence
of notice is required for a failure-to-train claim);
Mettler v. Whitledge, 165 F.3d 1197, 1204 (8th Cir.
1999) (“A single incident normally does not suffice to
prove the existence of a municipal custom.”); Otey v.
Marshall, 121 F.3d 1150, 1155 (8th Cir. 1997) (stating
notice is required for a failure-to-supervise claim).
Therefore, Count II of Plaintiffs Amended
Complaint—the Monell claim against the City of
Savage—fails to state a claim and should be
dismissed.
4.
§ 1983 Claims against the County
Defendants
Among the many claims asserted by Corrigan
are claims against Scott County and some of its
employees, including the Scott County Sheriff, the
probation officer who performed Corrigan’s PreSentence Investigation, and the prosecutor who
brought the stalking charges against him and
prosecuted the state criminal case.
a.
§ 1983 Claims against Assistant Scott
County Attorney Nelson Rhodus
Corrigan asserts that Scott County Attorney
Rhodus violated his Fifth and Fourteenth Amendment
rights to due process by amending the charge against
him from fifth degree assault to stalking; by meeting
with Bernier prior to her testimony at trial; and by

38a
failing to correct Bernier’s allegedly false testimony at
trial (Count III). Corrigan also asserts a claim against
Rhodus in his official capacity based on an allegation
that
the
Minnesota
stalking
statute
is
unconstitutional (Count V).

)

Absolute Prosecutorial Immunity
(i)
State prosecutors are protected by absolute
immunity against § 1983 claims arising from “the
initiation and pursuit of criminal prosecution,
including presentation of the state’s case at trial.”
Buckley v. Fitzsimmons, 509 U.S. 259, 269 (1993).
“[A]bsolute immunity defeats a suit at the outset, so
long as the official’s actions were within the scope of
the immunity.” Sample v. City of Woodbury, 836 F.3d
913, 916 (8th Cir. 2016) (quoting Imbler v. Pachtman,
424 U.S. 409, 419 n.13 (1976)). When absolute
immunity bars a suit, “dismissal under Rule 12(b)(6)
is appropriate.” Id.
Corrigan’s allegations that Rhodus violated his
rights by amending the criminal complaint, meeting
with Bernier prior to trial, and presenting false
testimony at trial are all within the scope of
prosecutorial conduct protected by absolute
immunity. See Imbler, 424 U.S. at 413, 430 (holding
that a prosecutor’s actions “in presenting the State’s
case” are protected by absolute immunity); Sample,
836 F.3d at 916 (“[A]negations of... improper motive
in the performance of prosecutorial functions do not
defeat the
protection of absolute immunity.”);
Reasonover u. St. Louis Cnty., 447 F.3d 569, 580 (8th
Cir. 2006) (stating that even if a prosecutor
“knowingly presented false, misleading, or perjured
testimony, ... he is absolutely immune from suit”);
Brodnicki v. City of Omaha, lb F.3d 1261, 1266 (8th
Cir. 1996) (stating that absolute immunity applies to

39a
“other conduct that is intimately associated with the
judicial process”); Williams v. Hartje, 827 F.2d 1203,
1209-10 (8th Cir. 1987) (finding that charging
decisions are protected by prosecutorial immunity).
Corrigan argues that Rhodus is not entitled to
absolute immunity because he acted in an
“investigatory capacity” when he met with Bernier
prior to trial. This argument fails because meeting
with witnesses in preparation for their testimony at
trial is not an investigatory function. See Reasonover,
447 F.3d at 580 (“For a lawyer to properly try a case,
he must confer with witnesses, and conduct some of
his own factual investigation.”); Brodnicki, 75 F.3d at
1267 (stating that the question is “whether the act was
closely related to [the prosecutor’s] role as an
advocate”). And Corrigan has pled no facts that would
support Rhodus was performing investigatory
functions that would fall into the category of “police
work.” See Brodnicki, 75 F.3d at 1267. He likewise has
pled no facts that would support that Rhodus’ had a
retaliatory motive when making his charging decision.
Accordingly, the claims asserted in Count III of
Corrigan’s Amended Complaint against Rhodus must
be dismissed.
Heck v. Humphrey - constitutionality of
(ii)
stalking statute
In Count V of his Amended Complaint,
Corrigan makes the claim that the stalking statute he
was charged under (Minn. Stat. § 609.749) is
unconstitutional. (Am. Compl. f 46; see also id.
40-41.) As stated above, under Heck v. Humphrey, a
plaintiffs § 1983 claims must be dismissed when
“judgment in favor of the plaintiff would necessarily
imply invalidity of the plaintiffs state conviction or
sentence.” Wilson v. Lawrence Cnty., Mo., 154 F.3d
757, 760 (8th Cir. 1998). In such cases, no cause of

40a
action under § 1983 exists “unless and until. . . [the]
conviction or sentence has been reversed on direct
appeal, expunged by executive order, declared invalid
by a state tribunal authorized to make such a
determination, or called into question by a federal
court’s issuance of a writ of habeas corpus.” Wiliams
v. Schario, 93 F.3d 527, 529 (8th Cir. 1996) (quotations
omitted). If none of those things has occurred, a
plaintiffs § 1983 claim is barred “if he contends that
the statute under which he was convicted is
unconstitutional,” Hughes v. Lott, 350 F.3d 1157,1160
(11th Cir. 2003), because finding in plaintiffs favor
would “imply invalidity of the plaintiffs state
conviction or sentence.” Wilson, 154 F.3d at 760; see
Green v. Grampre, 388 F. App’x 437, 438 (5th Cir.
2010) (stating that “[t]o the extent that Green seeks
to challenge the constitutionality of the Texas statutes
under which he was convicted, his claims amount to
an attack on his conviction .... a successful outcome
for Green would imply the invalidity of his criminal
conviction ...
. and [his] claims are therefore
barred under Heck”). Therefore, Count V should be
dismissed.12
12 Even if Corrigan’s statutory claim were not barred by Heck v.
Humphrey, his claim fails as a matter of law. First, Corrigan
raises an overbreadth claim under the First Amendment. (See
Am. Compl. H 40 (“The First Amendment “doctrine of substantial
overbreadth” allows a person to challenge a stalking statute on
the grounds that it may be unconstitutionally applied to legal
behaviors”).) Minnesota law defines “stalking” as - engaging]
in conduct which the actor knows or has reason to know would
cause the victim under the circumstances to feel frightened,
threatened, oppressed, persecuted, or intimidated, and causes
this reaction on the part of the victim regardless of the
relationship between the actor and victim. Minn. Stat. § 609.749,
subd. 1. The statute makes it a crime if a person stalks another

41a

by “follow[ing], monitor[ing], or pursuing] another, whether in
person or through any available technological or other means[.]”
Id., subd. 2(2). As explained by the Minnesota Court of Appeals
in State v. Stockwell, “[b]ecause the statutory provision is specific
as to the forms of conduct proscribed, because it requires that the
actor knows her conduct will cause fear and causes that reaction,
and because it is subject to a limiting construction, we conclude
that the degree of overbreadth is not sufficiently substantial to
require a holding that the statute is unconstitutional on its face.”
770 N.W.2d 533, 539-40 (Minn. Ct. App. 2009). At the time of the
Stockwell decision, an earlier version of the stalking statute was
in effect. However, the provisions at issue in this case are
substantially similar to those that were in effect in Stockwell.
Corrigan also alleges that the statute is
“unconstitutional as it is applied to Plaintiff.” (Am. Compl. If 41.)
He claims he followed Bernier for approximately fifteen minutes
in a “non-aggressive and non-threatening manner,” and “[t]his is
legal behavior and not proscribed by the statute.” (Id.) The public
record reflects that Corrigan’s conviction for stalking was based
on his driving conduct, which is “outside the protections of the
First Amendment because, even assuming that [he] intended to
convey a particularized message in following and pursuing
[Bernier] ... a reasonable person would not understand the
message that appellant was trying to convey when viewing the
conduct.” Stockwell, 770 N.W.2d 533, 540. Because the conduct
underlying Corrigan’s conviction was not expressive conduct but
was “dangerous and intimidating because of its aggressive
nature,” the as-applied challenge to the statute fails. See id.
(Corrigan disputes that his conduct was aggressive or
intimidating and continues to contest that his conduct caused
“fear” in Bernier; however, after hearing all facts and testimony,
a jury found that it did, and this was after an opportunity for
cross-examination by Corrigan.) In addition, Corrigan asserts
that the stalking statute is unconstitutionally vague in violation
of his right to due process. He claims, “[t]he Fifth and Fourteenth
amendments guarantee citizens due process rights, including
effective notice of the behavior that is criminalized by stalking
statutes.” (Am. Compl. If 40.) To the extent he is arguing that the
statute is vague, the Minnesota Court of Appeals has already
determined that it is not. See Stockwell, 770 N.W.2d at 541. The
court explained that “[t]he statute, when read as a whole, does

42a
b.

§ 1983 Claims against Probation Officer
Lynn Hanson
Absolute Immunity
(i)
Probation Officer Lynn Hanson is protected by
absolute immunity. Corrigan claims that Hanson
violated his Eighth and Fourteenth Amendment
rights by recommending a 120-day sentence in a PreSentence Investigation report that was submitted to
the state court judge (Count IV). 1313 Probation
officers perform judicious tasks when they prepare a
presentence report, including evaluating facts,
drawing legal
conclusions,
and making
recommendations that play a significant part in the
decision- making process. Many circuits have now
held that “because presentence reports are so closely
associated with the exercise of a judicial function,
probation officers who prepare these reports are
entitled to absolute immunity.” Anion, v. Getty, 78 F.3d
393, 396 (8th Cir. 1996) (citing Young v. Selsky, 41
F.3d 47, 51 (2d Cir. 1994), cert, denied, 514 U.S. 1102
(1995); Turner v. Barry, 856 F.2d 1539, 1540-41 (D.C.
Cir. 1988) (per curiam); Demoran v. Witt, 781 F.2d
155, 157-58 (9th Cir. 1986); Hughes v. Chesser, 731
F.2d 489, 1490 (11th Cir. 1984); Spaulding v. Nielsen,
599 F.2d 728, 729 (5th ,Cir. 1979)); see also Abbott v.
not criminalize the mere following of a person. Rather, the
statute provides sufficient clarity such that an ordinary person
could understand what conduct is prohibited.” (Id.) This Court
agrees. Therefore, Corrigan’s due process argument fails.
Because there is ample reason, as explained above, to dismiss
Count V regarding the constitutionality of the underlying
stalking statute, this Court need not address the County
Defendants’ additional arguments based on collateral estoppel or
res judicata.
13 Corrigan also lists Hanson in his Monell claim (Count VI),
which will be addressed below.

43a
Oiler, 497 F. App’x 683, 683-84 (8th Cir. 2013)
(affirming the finding that plaintiffs claims against
probation officers were barred by absolute immunity).
Accordingly, following the direction of the Eighth
Circuit and others, Corrigan’s claims against
Probation Officer Lynn Hanson should be dismissed
because of absolute immunity.
c. Monell claim
Corrigan asserts a Monell claim against Scott
County, Scott County Sheriff Luke Hennen,14 and
Probation Officer Lynn Hanson,15 alleging that the
County was deliberately indifferent to policies,
patterns, practices and customs, relating to “training,
supervision, investigation, or discipline” regarding the
provision of “adequate law libraries or adequate
assistance from persons trained in the law” to
prisoners, and regarding “[t]he proper exercise of
14 Because a claim against a government official in his or her
official capacity is the equivalent of a claim against the
government entity itself, it is redundant to bring the claim
against both Scott County and Sheriff Hennen in his official
capacity. See Banks v. Slay, 875 F.3d 876, 878 (8th Cir. 2017)
(“[A]n official-capacity suit is a suit against a government entity
in all respects other than name[.]”) (quotations omitted). Because
Corrigan has not alleged any specific act or omission against
Hennen, the claim against Hennen in his official capacity should
be dismissed as redundant,' and the claim against him in his
individual capacity should be dismissed for failure to state a
claim.
15
As stated above, Corrigan’s claims against Probation
Officer Lynn Hanson regarding her PSI report should be
dismissed because of absolute immunity. And because Corrigan
has pled no specific act or omission that Hanson did with regard
to his access- to-courts claim, and because the nature of the
failure to train claim is the adequacy of the training provided to
Hanson and no facts have otherwise been pled showing Hanson’s
involvement in the training policy or custom, the Monell claims
asserted against Hanson should be dismissed.

44a
probation officer powers, including but not limited to
the investigation, analysis and recommendation of the
[PSI] report” (Count VI). In other words, Corrigan is
raising Monell claims about (1) his access to courts,
and (2) adequate training for probation officers and
their preparation of PSI reports. Taking the latter
issue first, to hold Scott County liable under § 1983,
Corrigan must show that an official policy or custom
caused Hanson’s unconstitutional conduct. Monell,
436 U.S. at 691. However, no constitutional violation
occurred regarding the PSI report in Corrigan’s
underlying criminal case. As noted above (see supra n.
7), the 120-day sentence was not in violation of the
Eighth Amendment. “Without a constitutional
violation by the individual officers, there can be no §
1983 or Monell failure to train municipal liability.”
Sanders v. City of Minneapolis, Minn., 474 F.3d 523,
527 (8th Cir. 2007) (citing City of Los Angeles v.
Heller, 475 U.S. 796, 799 (1986)).!6
Regarding Corrigan’s access-to-courts claim, he
asserts that “he tried to access the court but was
unable because there was no adequate law library nor
an adequate system to obtain legal assistance to
obtain a court order for work release.” (Am. Compl.
16 16 This Court notes that the Monell claim fails for yet
another reason as well - Corrigan has alleged no facts indicating
that Scott County was on notice that any of its training programs
were inadequate. See Larkin, 355 F.3d at 1117 (stating that to
prevail on a failure-to-train claim, plaintiff must show notice that
the training program was inadequate and likely to result in
constitutional violations). Further, in his response brief,
Corrigan seems to be attempting to add a Monell claim based on
Rhodus’s conduct in changing the charge to stalking. This claim
was not alleged in his Amended Complaint and therefore need
not be addressed. However, the Court notes it would fail for the
same lack-of-notice reasons and because no constitutional
violation occurred when making the charge.

45a
39.) He also asserts that “a meaningful appeal and/or
other motions could not be drafted from jail, [so]
Plaintiff was forced to hire an attorney to assist in the
appeal, work release request and/or other motions.”

ad.)
General allegations that a law library is subpar
are not sufficient to state a claim. Sabers v. Delano,
100 F.3d 82, 84 (8th Cir. 1996). “Instead, the plaintiff
must show the lack of a library . . . hindered the
plaintiffs efforts to proceed with a legal claim in a
criminal appeal, postconviction matter, or civil rights
action seeking to vindicate basic rights.” Id. To
establish a cognizable access to courts claim under the
Fourteenth Amendment, a plaintiff must show that
the alleged denial of access caused actual injury.
Lewis v. Casey, 518 U.S. 343, 348, 352^53 (1996)
(stating that a plaintiff must show that he experienced
“actual prejudice with respect to contemplated or
existing litigation, such as the inability to meet a filing
deadline or to present a claim”). Actual injury occurs
when a plaintiff demonstrates that a “nonfrivolous”
and “arguable” claim was lost because of the denial of
access to the courts. Christopher v. Harbury, 536 U.S.
403, 415 (2002). “The right of access to the courts is
satisfied if the prisoner has the capability of bringing
contemplated challenges to sentences or conditions of
confinement before the courts.” Zink u. Lombardi, 783
F.3d 1089, 1108 (8th Cir. 2015) (quotations omitted).
Here, Corrigan has not alleged a plausible
claim that he was denied access to the courts because
he has failed to show actual injury. Corrigan’s work
release request was granted.17 (See Yunker Decl. ^ 3,
17 Further, a request for work release is not one of the three
categories of legal claims that can form the basis for an access-

46a
Ex. 12.) And Corrigan was able to file a motion to
vacate his conviction, for a new trial, and was able to
file bis appeal, among other motions. (Yunker Decl. f
3, Exs. 4, 10.) Simply because Corrigan felt he needed
to hire an attorney to help with his appeal, and that
he accrued legal expenses in doing so, does not support
an access-to-courts claim; instead, because he was
represented by counsel on appeal, he cannot maintain
an access-to-courts claim because the attorney
provided him access.18 See Entzi v. Redmann, 485
F.3d 998, 1005 (8th Cir. 2007) (dismissing access-tocourts claim because inmate was represented by
counsel on direct appeal of conviction); see also
Martinez u. Court of Appeal of Calif., Fourth Appellate
Dist., 528 U.S. 152, 163 (2000) (concluding the
California courts had not deprived the defendant of a
constitutional right when requiring him to accept
against his will a state-appointed attorney). Because
Plaintiff has not pled a constitutional violation with
respect to his access-to-courts claim, the Monell claim
fails. See Cook v. City of Bella Villa, 582 F.3d 840, 853
(8th Cir. 2009) (“Absent a constitutional violation,
there can be no municipal liability.”).
5.
§ 1983 Claims against Bernier (the
victim)
Corrigan asserts in Count I of his Amended
Complaint violations of his First, Fourth, Fifth, and
Fourteenth Amendment rights relating to free speech,
unlawful arrest, right to remain silent, retaliatory
to-courts claim. See Sabers, 100 F.3d at 84 (listing motions for
postconviction relief, appeals of the conviction, and civil rights
lawsuits)
18 Corrigan does “not claimQ that the appellate lawyer prejudiced
his appeal[.]”(Doc. No. 74, Pl.’s Mem. of Law in Opp’n to Scott
County Defendants’ Mot. 9.)

47a
prosecution, and malicious prosecution, against
Defendant Bernier—the victim of Corrigan’s
underlying stalking conviction—and the City Police
Officers. All claims against the City Police Officers
should be dismissed for the reasons explained above.
Although it is not altogether clear, it appears
that the claims Corrigan might be asserting against
Defendant Bernier are for unlawful arrest, retaliatory
prosecution, and malicious prosecution based on her
alleged “false, misleading, and perjured testimony’ at
trial.19 The claims against Bernier should be
dismissed because claims based on her testimony are
absolutely immune.
a. Absolute Immunity
Corrigan’s claims against Bernier mostly
appear to stem from her statements made during her
testimony at trial. He claims that Bernier’s testimony
was false, inconsistent, and the product of coercion by
the prosecutor in Corrigan’s criminal case. (Am.
Compl. 1H{ 35-36.) However, parties and witnesses
are immune from subsequent damages liability for
their testimony in judicial proceedings. Rehberg v.
Paulk, 566 U.S. 356, 367 (2012) (“[A] trial witness has
absolute immunity with respect to any claim based on
the witness’ testimony.”) (citing Briscoe v. LaHue, 460
U.S. 325, 330-33 (1983)). And absolute immunity from
any § 1983 claim cannot be circumvented by claiming
that the witness “conspired to present false testimony
or by using evidence of the witness’ testimony to
support any other § 1983 claim concerning the
initiation or maintenance of a prosecution.” Id. at 369.
19 Corrigan’s claims relating to “free speech” and the “right to
remain silent” have no bearing or relation to any action by
Bernier; therefore, if he was trying to assert those claims against
Bernier, they must be dismissed for failure to state a claim.

48a
Therefore, the claims asserted against Bernier should
be dismissed,
b.
Other reasons
Even if Bernier were not immune from the
claims asserted by Corrigan, the claims should still be
dismissed for various other reasons. First, as
explained above with respect to the claims asserted
against the City Police Officers, the unlawful arrest
and malicious prosecution claims are barred under
Heck v. Humphrey, 512 U.S. 477 (1994). Second, also
as explained above, the claim for allegedly retaliatory
prosecution necessarily fails because there was
probable cause for the underlying charge. See
Lawrence, 740 F. Supp. 2d at 1043.
Third, all of Corrigan’s § 1983 claims asserted
against Bernier, a private citizen, fail because her
actions were not performed “under color of law.” See
Briscoe, 460 U.S. at 330. As the Supreme Court has
explained, “§ 1983 does not create a remedy for all
conduct that may result in violation of ‘rights,
privileges, or immunities secured by the Constitution
and laws.’ Its reach is limited to actions taken ‘under
color of any statute, ordinance, regulation, custom, or
usage, of any State or Territoy.” [sic] Id. at 329.
Corrigan has not plausibly pled, nor can he plead,
facts showing that Bernier was a state actor at any
time. This Court is not required to treat Corrigan’s
conclusory allegations as true. See Ashcroft u. Iqbal,
556 U.S. 662, 678 (2009). Simply because Bernier
made a ^report to police stating that she was afraid or
“met with members of the attorney’s office on several
occasions” does not create an inference that she was a
state actor or that coercion was at play. Therefore, for
these additional reasons, Corrigan’s claims against
Bernier should be dismissed.
B. State Law Claims

49a
In addition to the federal claims asserted above,
Corrigan asserts state-law claims for false arrest,
false imprisonment, denial of due process, intentional
infliction of emotional distress, and malicious
prosecution against all of the Defendant City Police
Officers, a claim for prosecutorial misconduct against
Defendant Rhodus, claims for misrepresentation,
perjury, and intentional infliction of emotional
distress against Defendant Bernier, and a claim for
intentional infliction of emotional distress against
Defendants Hennen, Hanson, the City of Savage, and
the Scott County. (Am. Compl. ^ 48-50 (Count VII).)
Having recommended dismissal of all of Corrigan’s
federal claims, this Court recommends that the state
law claims be dismissed without prejudice pursuant to
28 U.S.C. § 1367(c).
Section 1367(c) provides that a district court
“may decline to exercise supplemental jurisdiction
over a [state law claim arising out of the same case or
district
controversy as a federal claim] if... the
court has dismissed all claims over which it has
original jurisdiction[.]” Id. § 1367(c)(3). Courts look to
“the stage of the litigation; the difficulty of the state
claim; the amount of time and energy necessary for
the claim’s resolution; and the availability of a state
forum.” Goddard, Inc. v. Henry’s Foods, Inc., 291 F.
Supp. 2d 1021, 1051 (D. Minn. 2003) (quotations
omitted). Declining supplemental jurisdiction over
pendent state claims is especially appropriate when
the dismissal of federal claims occurs early in the
proceedings. See Gregoire v. Class, 236 F.3d 413, 419
(8th Cir. 2000) (“If the claim giving original
jurisdiction is dismissed early in the action, before
any substantial preparation has gone into the
dependent claims, dismissing or remanding the [state
claims] upon declining supplemental jurisdiction

50a
seems fair enough.”) (internal quotations omitted).
This Court recommends that all of Corrigan’s federal
claims be dismissed. With no scheduling order yet in
place, and no discovery having been exchanged, this
case is still at an early stage. Accordingly, this Court
recommends that the District Court should decline to
exercise supplemental jurisdiction over Corrigan’s
state claims pursuant to § 1367(c)(3), and those claims
(Count VII) should be dismissed without prejudice.20
RECOMMENDATION
Based on the foregoing, and all the files,
records, and proceedings herein, IT IS HEREBY
RECOMMENDED that:
1.

Defendant Judge Christian Wilton’s
Motion to Dismiss Amended Complaint
(Doc. No. 35) be GRANTED;
2.
Defendants City of Savage, Police Officer
Kerkaert, Police Officer Culbreth, Police Officer Kyle
Klapperick, Police Officer Alexandria Marklowitz, and
Police Officer Uthe’s Motion for Judgment on the
Pleadings (Doc. No. 45) be GRANTED;
3.
Defendants Nelson Rhodus, Luke
Henne, Lynn Hanson, and Scott County’s Motion for
Judgment on the Pleadings (Doc. No. 50) be
GRANTED;
4.
The Motion for Judgment on the
Pleadings of Defendant Amber Bernier (Doc. No. 69)
be GRANTED;

20 In recommending dismissal without prejudice, this Court in no
way suggests that the state-law claims have merit or are not
otherwise subject to various immunities, bars, or other reasons
for dismissal

51a
5.
Plaintiffs Amended Complaint (Doc. No.
23), be DISMISSED in its entirety (Counts I, II, III,
IV, V, and VI be dismissed with prejudice, and Count
VII be dismissed without prejudice); and
6.
Judgment be entered accordingly.
Date: January 14, 2019
s/ Becky R. Thorson
BECKY R. THORSON
United States Magistrate Judge

